IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
Fifth Circuit
FOR THE FIFTH CIRCUIT
FILED
May 28, 2020

No. 19-40262
Conference Calendar

Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,

7

Plaintiff-Appellee
v.

JOSE MARIA LOAIZA-GASPAR, also known as Chema,
Defendant-Appellant

Appeal from the United States District Court
for the Eastern District of Texas
USDCNo. ,4:17-CR-198-3

Before DAVIS, SMITH, and SOUTHWICK, Circuit Judges.
PER CURIAM:*
The attorney appointed to represent Jose Maria Loaiza-Gaspar has
moved for leave to withdraw and has filed a brief in accordance with Anders v.
California, 386 U.S. 738 (1967), and United States v. Flores, 632 F.3d 229 (5th
Cir. 2011). Loaiza-Gaspar has filed a response. We have reviewed counsel’s
brief and the relevant portions of the record reflected therein, as well as LoaizaGaspar’s response.

We concur with counsel’s assessment that the appeal

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

/\PPENt)J(X A-

K

No. 19-40262
presents no nonfrivolous issue for appellate review. Accordingly, counsel’s
motion for leave to withdraw is GRANTED, counsel is excused from further
responsibilities herein, and the APPEAL IS DISMISSED. See 5TH ClR. R. 42.2.

2

Z<\

Additional material
from this filing is
available in the
Clerk's Office.

